No. 19-248

 

 

In THE
Supreme Court of the United States

WALID JAMMAL, et al.,

Petitioners,
Vv.
AMERICAN FAMILY INSURANCE COMPANY, et al.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 13, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
